Supreme Court, U.S.
FILED

DEC 2 3 2019

No.

OFFICE OF THE CLERK

3fn W) e

Supreme Court of tfje Mntteb States;

JERRY LEE CARR,
Petitioner,
v.
WILLIAM BARR,
Respondent.
i

On Petition For A Writ Of Certiorari
To The D.C. Circuit Court Of Appeals
I

PETITION FOR WRIT OF CERTIORARI

Jerry Lee Carr
9674 Colerain Ave., #267
Cincinnati, Ohio 45251
513-312-6698

I

1

QUESTIONS PRESENTED
(1) Was Petitioner Jerry Lee Carr, U.S. Citizen, Con­
stitutional Rights and Civil Rights violated July 3,
1990, including Torture! 2-90-360?
(2) Was Petitioner Jerry Lee Carr, U.S. Citizen, Con­
stitutional Rights and Civil Rights violated in March
3, 2007, Case 6-1893?
(3) Was exculpatory evidence intentionally con­
cealed, hidden, altered and omitted?

\

(4) Judge Michael Barrett issued a Court Order that
Carr raised issues and exhibit book that need reme­
dies, some in state Forums, some in Federal Forums
but Must be Petitioned! Judge Barrett - Did he support
Petitioner Carr’s Claims of Civil Rights Violations?

f)

i

ft
*

11

LIST OF PARTIES
All parties appear in the caption of the case on the
cover page.
Jerry Lee Carr Petitioner
William Barr

Respondent

RELATED CASES
Cases:
Carr and Rennick vs. Frost & Jacobs, D.O.J. and F.B.I.,
C-2-90-360
Carr vs. Frost, Brown & Todd, D.O.J. and F.B.I., 061893
Carr vs. D.O.J., CV1:18-00356
Carr vs. William Barr, 19-5077, D.C. Circuit Court of
Appeals

Ill

TABLE OF CONTENTS
Page
OPINIONS BELOW................................................

1

JURISDICTION......................................................

1

CONSTITUTIONAL AND STATUTORY PROVI­
SIONS INVOLVED..... ........................................

1

STATEMENT OF THE CASE..............................

3

REASONS FOR GRANTING THE WRIT............

11

CONCLUSION...... ...............................................

22

INDEX TO APPENDICES
APPENDIX A Court of Appeals for the D.C.
Circuit, 19-5077 ........................ App. 1
APPENDIX B Memorandum Opinion, U.S. Dis­
trict Court for the District of Co­
lumbia ....................................... App. 3
APPENDIX C Order, U.S. District Court for
the Southern District of Ohio,
Western Division
App. 26
APPENDIX D Order, U.S. District Court for
the District of Columbia
App. 27
APPENDIX E Order, U.S. District Court for
the Northern District of Ohio,
Eastern Division
App. 28

IV

TABLE OF AUTHORITIES
Page
Cases:
Carr and Rennick vs. Frost & Jacobs, D.O.J. and
F.B.I., C-2-90-360
passim
Carr vs. Frost, Brown & Todd, D.O.J. and F.B.I.,
....4,5, 10
06-1893................................
Carr vs. D.O.J., CV1:18-00356

11,18,21

Carr vs. William Barr, 19-5077, D.C. Circuit
Court of Appeals............................................ .

21

Statutes and Rules:

42 U.S.C. § 1983.........
18 U.S.C. § 1201.........
18 U.S.C. §§ 241, 242....
18 U.S.C. § 1001.........
18 U.S.C. §§ 1503,1505
18 U.S.C. § 1512.........

1
1,14, 22, 28
1, 28
2,14,19, 22, 29
............. 2,6,22
........... 2,16, 22

1st Amendment...........

2

2nd Amendment.........

2

4th Amendment..........

2

5th Amendment..........

2,16

6th Amendment..........

2

7th Amendment..........

2

8th Amendment..........

2,14

9th Amendment..........

2

V

TABLE OF AUTHORITIES - Continued
Page
10th Amendment

2

13th Amendment

2

14th Amendment

2,16

15th Amendment

2

1
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certio­
rari issue to review the judgment below.

OPINIONS BELOW
The opinion of the United States Court of Appeals
appears at Appendix A to the petition and reported at
D.C. Circuit Court of Appeals.
The opinion of the United States District Court
appears at Appendix B to the petition and is reported
at dismissed jurisdiction U.S. District Court, Southern
District.

JURISDICTION
The date on which the United States Court of Ap­
peals decided my case was October 3, 2019.
The jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
42 U.S.C. § 1983

Under Color of Law

18 U.S.C. § 1201

Kidnapping at gunpoint

18 U.S.C. §§ 241, 242

Deprivation of Civil Rights

2

18 U.S.C. § 1001

Chapter 47 Fraud and False
Statements

18 U.S.C. §§ 1503,1505 Obstruction of Justice
18 U.S.C. § 1512

Tampering with a witness

1st Amendment:

Petition the Government for
a Redress of Grievances

2nd Amendment:

Right to keep and bear arms

4th Amendment:

Illegal Search and seizure,
upon sworn oath

5th Amendment

Due Process

6th Amendment

Face your accuser

7 th Amendment

Right to trial by Jury

8th Amendment

Cruel and Unusual Punish­
ment

9th Amendment:

Certain Rights, shall not be
denied

10 th Amendment

Bill of Rights

13th Amendment

was not convicted by Jury

14th Amendment

Due Process, equal protection

15th Amendment

Right to vote

*

i

Petitioner Jerry Lee Carr believes he has lost all
aforementioned rights due to the aforementioned ille­
gal acts under color of law.

3
STATEMENT OF THE CASE
Petitioner Jerry Lee Carr, 77 yrs of age, Natural
Born Citizen, is a victim of Legal Abuse and Spoliation
and Denied Due Process. Petitioner is appealing under
Color of Law, 42 U.S.C. § 1983, 18 U.S.C. §§ 241, 242.
Petitioner has been denied Due Process in efforts to
Prove Innocence from Two Unlawful Kidnappings at
Gun Point to impede case 2-90-360, R.I.C.O. and 061893, R.I.C.O. Petitioner was taken to a State Mental
Inst, and Tortured, 18 U.S.C. § 2340, Forced injections
of Haldol, Cogentin and Ativan 3 times a day and Elec­
tric Shock Treatments to stop 2-90-360 R.I.C.O. from
proceeding by declaring Petitioner to be mentally ill on
a False Affidavit by a State Forensic Psychologist
Roger Fisher causing the Petitioner to suffer from
legal abuse syndrome leading Petitioner to suffer from
P.T.S.D. derives from taking a normal 47 yrs of age
sane male and torturing Petitioner to stop his 2-90-360
R.I.C.O. suit from proceedings. The Court never allowed
Due Process because Petitioner had tape recorded that
conversation between Petitioner and Forensic Psycholo­
gist Roger Fisher proving Dr. Roger Fisher filed a False
Affidavit to stop the R.I.C.O. suit against his employer
Champion Int. Papers and their law firm Frost, Brown
& Todd in Cincinnati, Ohio. The Court and Authorities
to the present time has concealed and refused to listen
to tapes exonerating Petitioner.
Karen Huffer (1995) discovered that many legal
system’s victims suffer from a variant of PTSD. Accord­
ing to Huffer, you may be suffering from Legal Abuse
Syndrome, 5 symptoms (5) if you feel you have been

4
victimized several times over by the perpetrators, by
Lawyers, Judges, bailiffs and other Court Personnel.

i

In case 1-84-1487, Rennick vs. Champion Int., Ms.
Rennick had to try her own Civil Rights case for 7 days,
Judge Herman Weber allowed Rennicks Attorneys
Ivan Tamarkin and Bruce Hampton to bow out of the
case. In Court Transcripts, it was brought out that
Frost, Brown & Todd attorney Randy Freking had
threatened one of Rennicks witnesses into changing
his Testimony, named Allen Lampley. During the
course of the Trial under Oath, Mr. Lampley was told
by Freking on pages 681 through 695. Freking told
Lampley that (He) Freking was associated with People
in High Places that Controlled the Federal Courts! Mr.
Freking also told Lampley (He) Freking could pretty
much do whatever (He) Freking wanted to do, includ­
ing denying a court order for Freking to turn over per­
sonnel folders of William “Wa Wa” Jones and Louis
“Wormie” Wilson because both were reprimanded for
the constant use of word “Nigger” and poorly, poorly
planned Racial Harassment of Rennick. Judge Weber
advised Lampley to go to U.S. Attorney’s office and file
a lawsuit!
To further display that Freking was confident in
making those statements of being associated with peo­
ple in high places that controlled the federal courts. Pe­
titioner Jerry Lee Carr filed another R.I.C.O. suit in
Washington, DC., C-06-1893, Judge Robertson. Judge
Robertson was so biased and prejudiced against Carr;
Judge Robertson’s opening statement in Robertson’s
Response was this Court awoke when Frost, Brown

5

t

i

and Todd and Attorneys George Yund and Randy Freking put in their answers to Carr’s R.I.C.O. suit, 061893. Robertson also stated that Carr filed a 123-page
document of Incoherent Ramblings, trying to double
down on Forensic Psychologist Roger Fisher’s False Af­
fidavit of Carr being mentally ill. This Nov. 6, 2016,16
years after Carr was unlawfully at gunpoint taken to
Rollman’s Mental Inst., in Cincinnati, Ohio, and tor­
tured; there is no mention of Petitioner being tortured
at Rollman’s State Mental Inst., plus Petitioner (Carr)
was direct witness and co-plaintiffs in C-2-90-360 and
was unlawfully under 18 U.S.C. § 1512, tampering
with a Witness as Allen Lamprey. Within 4 months of
filing 06-1893 R.I.C.O. suit, on March 3, 2007, Two
Federal Agents, Joel Kimmett, U.S. Marshal, and
F.B.I. Agent Terrance Moran, filed a Probable Cause
Affidavit that Petitioner (Carr) owned and possessed
an AK-47 with intentions of murdering federal judge
Robertson and the two Federal Agents Kimmett and
Moran. This was a total lie. Carr never owned or pos­
sessed an AK-47. Judge Robertson sent this case back
to Cinti., Ohio, for Carr to be punished under the Bogus
Sanction imposed by a Bogus Trial by Judge Menos.
Carr was immediately surrounded by over 25 Federal
Agents and arrested, shackled and handcuffed and
threatened with a head shot if Carr continued to pur­
sue this matter! Again, Petitioner (Carr) was Denied
his Miranda Rights and sent directly to seven (7) dif­
ferent Federal D.O. J. prisons and County Jails and Tor­
tured again in the Mental Wards in each Prison or Jail!
Petitioner (Carr) pleaded for the authorities to listen
to the tape recordings of Dr. Fisher and Dr. Miller to

6

clear up this unlawful Detention and Kidnapping at
gunpoint by the authorities to keep the Bogus narra­
tive that Petitioner (Carr) was mentally ill. 17 Years
later, the Authorities, D.O.J., F.B.I. and the Courts con­
tinue this cover-up of kidnapping, unlawful imprison­
ment, torture, 18 U.S.C. § 2340, Civil & Unusual
Punishment, 18 U.S.C. § 1512, Tampering with a Wit­
ness; 18 U.S.C. §§ 1503, 1505, Obstruction of Justice
and again as in July 1990 on False Affidavits by Kimmett and Moran that Petitioner (Carr) made threats! 18
U.S.C. §§ 241, 242, Deprivation of Petitioner’s Consti­
tutional and Civil Rights. Petitioner (Carr) was
incarcerated for a year for filing 06-1893. Petitioner
again, as in 1990, did not get Due Process to prove his
Innocence; the Court has allowed Kimmett and Moran,
both Federal agents, to get away with filing a False
Probable Cause Affidavit stating Petitioner (Carr)
owned and possessed an AK-47 with intent to Murder
a Federal Judge (Robertson and both Federal Agents
Kimmett and Moran). Petitioner has never owned or
possessed an AK-47 in his entire life. No matter, Peti­
tioner is always Denied Due Process! Petitioner has
enough factual evidence to show this law firm, Frost,
Brown and Todd, is connected to “People in High Places
that Does Control the Federal Courts!” Judge Robert­
son has adopted the Bogus Memorandum by Judge
Manos Banning Jerry Carr and Sharon Rennick from
ever suing Frost, Brown & Todd and Attorneys George
Yund and Randy Freking in any Court in the United
States, a get out of Jail Card Denying Carr a chance to
Prove his Innocence! Petitioner (Carr) after a year in
prison and County Jails and 3 years Probation, filed a

i

7

“Motion” in U.S. District Court, Southern Div., in Cinti.,
Ohio, Judge Michael presiding. The “Motion” was
CR:107 and Requesting the Court for “Vindication” to
vacate the False Charges of Mental illness and now a
Felony Charge of owning and possessing a 9mm Smith
& Wesson handgun from a Bogus Illegal Search & Sei­
zure Warrant. Agents Kimmett and Moran came with
a blank search warrant to find the AK-47 but found Pe­
titioner had a 9mm handgun for home protection. On
that search warrant, it stated a 9mm Smith & Wesson
was found with (3) three bullets. How did they know
ahead of time to seek a search warrant that Carr had
(3) bullets in seeking a search warrant, and threatened
Carr’s life twice!
Judge Michael Barrett agreed to hear Petitioner
(Carr’s) motion for “Vindication!” Judge Barrett first
addressed the issue of Petitioner (Carr) labeled a vex­
atious litigator. Petitioner had filed two lawsuits in his
entire life: one by Attorney Marc Mezibov to get Peti­
tioner’s employment back from an unlawful termina­
tion in Dec. 1984 and second suit was the C-2-90-360
R.I.C.O. against same law firm, Frost and Jacobs (now
Frost, Brown and Todd) for that Petitioner (Carr) ask
Judge Barrett how does that make you a vexatious
litigator? Judge Barrett replied in transcript, Quote
“Honestly Jerry, I can’t answer that. Judge then moved
on to Dr. Roger Fisher, on page 12 of case no. 1:07-Cr107, Aug. 4,2011, Quote, “The thing that I thought was
improper was that He (Fisher) appointed himself as
Quote Unquote “Independent Evaluator.” He’s (Fisher)

8
the guy that actually has you committed. Judge con­
tinues “Well and I think that was probably wrong.”
On page 12, Line 12, 13, “Clearly, that guy was a
Bad Actor.”
Page 13, Line 10, 11, “I think what happened to
you back in the ’90’s, was unfair.”
Page 13, Line 14 thru 18, “I did not rely on any­
thing that Dr. Fisher or what was the other guy’s
name?”
Page 13, Line 16,17, Dr. Prada got his license Re­
moved! Judge Barrett, Yeah. “He was a kook, too!”
Back to page 12, Line 1 2,1 think some things that
happened were “Clearly wrong,” stated Judge Barrett.
Page 14, Line 4, 5, 6: Judge Barrett, Yeah yeah. So
that’s - but, clearly, Jerry some things that have hap­
pened in the Past to you have been unfair.” There is no
doubt.”
Page 21, Line 18, Judge Barrett: He (Fisher) was
just a “Bad Actor.”
Page 23, Line 1 thru 4, “Shock Treatments.” Judge
Barrett - especially as it relates to Dr. Fisher, there are
some things that shouldn’t have happened in your
case. “I don’t think there is any Doubt about that.”
Page 23, Line 7, 8, 9, 10, 11, 12, Judge Barrett: I
mean, I guess it’s kind of like being a Vietnam Veteran
or something. You’ve got nightmares - (Carr) P.T.S.D.

9
Judge Barrett: Yeah. ‘You’ve got nightmares regarding
Bad Stuff that happened to you.”
Page 20, Line 23, the Contact Person, instead of
Fisher contacting Michael Maundrell, who was repre­
senting Frost, Brown & Todd at the time, C-2-90-360,
Fisher contacted George Yund.
Page 27, Line 8, 9,10, You are acknowledging that
Dr. Prada and Dr. Fisher lost their license and quote
unquote “Bad Apples.”
Page 30, Line 9 thru 12, Judge Barrett referring to
Manos, C-2-90-360. Judge Barrett: It looks like some­
body filed a motion. I don’t see anything about Evi­
dence, Jerry.
It just says that Judge Manos reviewed the Motion
and the attached memorandum that was submitted to
him (Manos), No Trial or Hearing as the checked Box
on Court Sheet C-2-90-360 IS all evidence reviewed at
Trial or Hearing, this is a False Document, even Judge
Barrett on page 30 Line 9 thru 12: Judge Barrett, it
looks like somebody filed a motion. I don’t see anything
about Evidence, Jerry. Manos just ruled on a motion to
Dismiss no Due Process, no Trial or Hearing for Peti­
tion Carr to prove his Innocence, even having the tape
recordings of Forensic Psychologist Roger Fisher and
Psychiatrist Michael Miller both lied on Affidavits to
the Butler Cty Courts, Petitioner still has those tapes,
exposing Carr’s Employer and their law firm Frost,
Brown & Todd behind sending Carr to see these Bad
Actors and Kooks, Judge Barrett’s own words. Tran­
scripts from Aug. 4, 2011 Hearing in Front of Judge

10
Michael Barrett and United States District Attorney
Leslie Williams, who on Page 11, Top of page Leslie
Williams in U.S. Court of Appeals, states some mental
health events in his past that may have been handled
Improperly. Forced Injections and shock treatments at
Rollmans State Mental Inst.
On page 12, Carr admitted to one possession of
a firearm while having been previously committed
to mental institution (Unlawfully) at gunpoint (Kid­
napped). I have tapes, I never had Due Process.
Leslie Williams, U.S. Attorney, intentionally covers
up the kidnapping at gunpoint by Sheriff Deputies on
False Affidavits, so Leslie Williams name Specifically
Dartmouth in Dayton, Ohio, intentionally omitted
Rollmans and the unlawful acts.
So the statement of this case is Legal Abuse, Denied
Due Process and Spoliation of Evidence.
Apparently Randy Freking, Frost, Brown & Todd
Attorney, knew what he was saying on page 695 of Rennick vs. Champion, 1-84-1487, I am associated with
People in High Places that Control the Federal Courts.
1) Judge Manos Fabricated a Bogus Hearing on a Mo­
tion and Memorandum. A Lifetime Sanction, C-2-90360 Dismissed.
2) Judge Robertson sent Petitioner to Prison and
Jails for a year for breaking Manos sanction, 06-1893,
Dismissed while Petitioner in Prison, No Due Process,
Claiming Res Judicata. The case has never been liti­
gated.

11
3) Judge Contreras, Filing Fees paid, 1:18-00356,
Dismissed Res Judicata. Case has never been litigated.
4) Judge Michael Barrett, Aug. 4, 2011, held a Hear­
ing in U.S. District Court, Cinti., Ohio, found that Pe­
titioner (Carr) was wronged and is suffering from
P.T.S.D. from the Torture at Rollmans State Mental
Inst.

REASONS FOR GRANTING THE PETITION
Petitioner Jerry Lee Carr has suffered from P.T.S.D.,
direct cause of cruel and unusual punishment since
July 3, 1990; also Irreparable Damage of Emotional
Distress and Irreparable Defamation in Reputation.
Petitioner pleads for the U.S. Supreme Court to
send a strong message the D.O.J. and F.B.I. must pro­
tect all citizens rights not by selection of who is pro­
tected and who is not.
Petitioner pleads for $30 million in Punitive Dam­
ages and $30 million in Compensatory Damages.
Petitioner Jerry Lee Carr is a natural born Amer­
ican Citizen, born in Portsmouth, Ohio, Nov. 9, 1942.
As a natural born citizen, I am entitled to all rights
afforded to all American Citizens under the United
States Constitution of America and the Bill of Rights.
I have had all Rights Removed! I am bringing this mat­
ter before the United States Supreme Court to correct
erred Decisions by the lower Courts and Retain my

12
Rights and Pray this from happening to any other
American Citizen.
The Loss of my Rights began on June 26, 1984. I
was 41 yrs of age, a Journeyman Electrician, Journey­
man Millwright and a Union Steward for Union Local
1967.1 was on site Direct Witness to two male co-workers
and active members of the Ku Klux Klan named Louis
“Wormie” Wilson and William “Wa Wa” Jones scream­
ing profanities at a female employee and telling her to
stop playing Grab Ass with the N gg rs in the plant.
I was then threatened by both Klansmen. I went to Up­
per Management and was threatened by Management
if I value my employment, I should go back to work and
forget about this matter. When I went back to my work
wagon, there was a small card placed on my wagon
stating, “You have been paid a friendly visit by the “Ku
Klux Klan.” “Should we pay you a real visit.”
On June 26, 1984,1 and a Female Employee were
threatened by the Ku Klux Klan in the workplace. The
D.O.J. and F.B.I. refused to investigate our Complaints.
My Employer and their law firm, Frost, Brown & Todd
(Formerly Frost & Jacobs) retaliated in the workplace
and outside the workplace, including a parking lot
beating by three Klansmen and half my right ear was
bitten off and spit out in front of me, the Klansman
never spent one minute in Jail and only fined $75.00
in Court. The Retaliation was severe in the workplace:
almost run over by a fork truck twice intentionally and
my lockouts were being cut off of Electrical Discon­
nects and Energized trying to kill me with 480 volt
three phase. I had to call OSHA in and the company

J

13
was fined $400.00. It had become an unsafe workplace
for me. I went to every agency in place to help persons
in my position but I soon found out they controlled the
O.C.R.C., E.E.O.C., N.L.R.B., A.C.L.U. and the D.O.J.
and F.B.I. In 1989, I met with two Cincinnati Bell
workers informing me my phone was tapped. On May
21,1990,1 filed a R.I.C.O. suit in U.S. District Court in
Cinti., Ohio, C-2-90-360, invoking my 1st Amendment
Right to Petition the Government for a redress of griev­
ances. Within 6 weeks, the company’s law firm, Frost
& Jacobs, hatched a plan to set me up with two Bogus
garnishments from Federated Dept, stores and Frost &
Jacobs represents Federated Dept. Stores, Cinti. Bell,
Frost & Jacobs uses their clients when they have to,
my employer suggested I join Employees Assistance
Program (E.A.P.) to save my job but I had to go to
Credit Card Counseling with a Psychiatrist, Michel
Miller and a Psychologist, Roger Fisher. I was suspi­
cious so I took a pocket tape recorder and recorded
about 20 min. with both Miller on July 2, 1990 and
Fisher July 3,1990. Before seeing Miller and Fisher, I
never had any Mental Issues. I was an 18.5 yr em­
ployee with two Journeyman licenses and a Union
Steward. Within 15 minutes of leaving Fisher’s office, I
was surrounded by 6 Sheriff Deputies and I was taken
directly to Rollmans State Mental Inst, in Cinti., Ohio.
Two huge orderlies were standing outside waiting on
my arrival. This was all planned. I was immediately
grabbed and slammed to the ground and injected with
a strong drug. For the next 6 days, I was held down
and injected with Haldol, Cogentin and Ativan three
times a day and also strapped down on a gurney and

14
Forced Electric Shock Treatments. This was all mali­
cious, intentional punishment and torture, 18 U.S.C.
§ 2340(1)(2)(A)(B)(C)(D).
I did not know why I was being taken to a state
mental Institution (Rollmans). I was Imprisoned and
Tortured for 6 days before being taken to a Probate
Hearing. I was held captive against my will and Emo­
tionally Stressed beyond belief.
Doctors kept me on psychotic drugs and the very
first afternoon, I was attacked by 5 young black men
and fought off even under heavy drugs. I was denied
my Miranda Rights. I was unlawfully taken at gun­
point by Sheriff Deputies (kidnapped), 18 U.S.C. § 1201.
I was denied Legal Representation. I was Denied an
Independent Evaluation. I was Denied a phone call, a
shower, all food was brought in by a minister. I could
not believe what was happening to me in the United
States of America. I had lost all my rights as a natural
born Citizen. I was finally told that Dr. Miller and Dr.
Fisher both filed False Affidavits with Butler County
Court that I had threatened persons in their presence,
18 U.S.C. § 1001, and had the Deputies take me at gun­
point to Rollmans Mental. I still have those tape re­
cordings to prove I never threatened anyone at any
time. Even if I had threatened anyone, I do not believe
this would be classified as normal procedure for mak­
ing a threat. What happened to taken to Jail. Then a
Dr. Slaven explained to me that I was now mentally ill
and stated this will follow me throughout life. Your
word is now moot; no one will ever believe your word
on anything. I told Dr. Slaven this was Cruel & Un­
usual Punishment, 8th Amendment. Dr. Slaven went

;

15
on to tell me your lawsuit is being dismissed because I
was now mentally ill classified. Just two days earlier, I
was an honest, hard worker, two Journeyman Licenses
and thought highly enough by employees to ask me to
represent them as Union Steward and no mental prob­
lems.
He told me they wanted me labeled Delusional
Paranoid so no one would ever take me serious as this
U.S. District Court in Washington, DC has done, not
taking me serious. After 6 days of Emotional Distress
from being held down and injected (9) nine times a day,
electric shock treatments. I was being taken to Butler
County Probate Court for a hearing. On or about 6:00
AM in the morning I was given a stronger drug where
I was virtually helpless. By the time for my probate
hearing, I was literally dragged across a Public Street
in Butler County (Hamilton, Ohio) where many people
viewed this. I was even slobbering from the mouth. I
was seated in a hearing room, a lawyer sat next to me
named Pat Garriston and said he was my attorney,
never even asked me a question, just shows on paper I
was represented. Judge Henry Bruewer came into the
Hearing Room, read my Folder, got up and stated "I
will not participate in this” and walked out so they
brought in an attorney from out in the hall to probate
me to Dartmouth Behavioral Center in Dayton, Ohio,
on Roger Fisher simply stating I was Delusional and
Paranoid, that I had just recently filed a R.I.C.O. suit
against my employer and their law firm Champion
Papers and Frost & Jacobs Law Firm and should
be Probated. Hearing lasted 10 minutes. I again was

16
handcuffed and shackled and taken directly to Dayton
Dartmouth Behavioral Center. My Co-Plaintiff and I
never received our Due Process guaranteed in the
Fifth and Fourteenth Amendment. I was incarcerated
for a total of 35 days against my will, tortured, humil­
iated in public, denied a Hearing of any type for first 6
days and I was not even charged with anything, just
labeled mentally ill and my Co-Plaintiff Sharon Rennick was not even allowed to speak at my Probate
Hearing as a witness. Ms. Rennick listened to the tapes
of Miller and Fisher and no threats were made again.
I double down on this was still cruel and unusual Pun­
ishment, 8th Amendment. Ms. Rennick had sent two
telegrams making Miller and Fisher aware I had tape
recorded both in our single meetings for 20 min. I was
supposed to be at each Doctor office for credit card
counseling. They had already filed affidavits in Court
ahead of me meeting. This was all to get a Psychiatrist
and a Forensic Psychologist to declare me Mentally Ill
so the R.I.C.O. suit, C-2-901360, would be Dismissed. If
I was so Mentally Ill that I needed forced injections
and shock treatments, why was I released in just 35
days? Just to Destroy my credibility and character. I
was refused access to my medical papers upon release.
I went to the Hamilton Police Dept, and was referred
to Officer Doug Crawford charged with taking any
Complaints against Roger Fisher and he refused my
Complaint. I now realized they were guilty of orga­
nized White Collar Crimes under 18 U.S.C. § 1512,
Tampering with a Witness and 18 U.S.C. § 1505, Ob­
struction of Justice to Dismiss and impede a legal pro­
ceeding, C-2-90-360. I continued to try and get my

17
Probate Papers and Legal Representation throughout
the 1990’s. In 2001 July Cindy, Crawford Clerk of Courts
in Butler County, after 11 years. Psychologist Faye
Ross of West Chester TFA Group took a year to get my
papers released, then the clerk to Judge Randy Rogers
told me and Ms. Rennick anything in that Folder
has legally expired time limits have run out and
smiled.
There was very incriminating evidence in my Pro­
bate Medical Records from Rollmans State Mental In­
stitution. Two pages in particular is the Medical Paper
showing I was injected 3 times a Day with Haldol, Cogentin and Ativan. The second page of Medical Papers
from Rollmans states was Patient explained his Legal
Rights Rollmans checked Mark AY).
There were two fax transmittal pages showing all
the parties involved in my unlawful imprisonment and
kidnaping. First page shows Forensic Psychologist
Roger Fisher (contact person) Elaine Holman E.A.P.
Director. Roger Fisher filed the False Affidavit, Elaine
Holman E.A.P. Director made the appointments to see
Miller and Fisher for Credit Card Fraud. The second
page of the Fax Transmittal Documents shows Roger
Fisher contacted George Yund, Legal Counsel and De­
fendant in R.I.C.O. 2-90-360. George Yund provided
phone numbers and trying to reach Federal Judge John
Manos to get my case Dismissed. Ms. Rennick, CoPlaintiff, had just 2 days prior to this Fax Transmittal
had sent Roger Fisher two telegrams explaining I had
tape recorded our conversations and no threats were
made. Roger Fisher panicked and called George Yund

18
of Frost & Jacobs Law Firm to contact the Judge as­
signed to the case, George Yund was behind this whole
kidnapping and torture because he was a Defendant in
a R.I.C.O. suit, 2-90-360, George Yund on page two of
the Fax shows Fisher writing down the phone numbers
provided by George Yund until Fisher reached and wrote
down John Manos on second page to talk to Judge Manos
to Dismiss 2-90-360. Petitioner has been Denied his
Constitutional Right to be Innocent until proven guilty,
called Due Process, which Petitioner was never af­
forded because of the egregious outrageous crimes com­
mitted against the Petitioner. Case C-2-90-360, Judge
Manos, a Fabricated Hearing and Bogus Sanction Pro­
tecting Frost, Brown & Todd and Attorneys George
Yund and Randy Freking from Petitioner suing for
illegal acts and intentional damages. Case 06-1893
R.I.C.O. Judge Robertson, Petitioner paid filing fees,
then within 4 months over 25 federal agents took Peti­
tioner at gunpoint against as in 1990 and taken di­
rectly to seven different Federal prisons and County
Jails. Cl:18-00356 Vindication suit Wash., D.C., NO
Due Process to even get vindication, Dismissed claim­
ing Res Judicata, claiming Petitioner had already liti­
gated this false, same as Cl:18-00356 Contreras. The
only time this case of Petitioner has been heard and
only in part, no witnesses were on a witness stand but
after Petitioner completed a year in prison for a fire­
arm under a Mental Disability, by Fisher false Affida­
vit making Petitioner on paper being in a Mental Inst,
(unlawfully). Petitioner filed a motion in U.S. District
Court in Cinti., Ohio, CR:1:07 Judge Michael Barrett
Aug. 4, 2011. Judge Barrett exonerates Petitioner in

19
transcripts from that Hearing. On page 2, Judge
Manos labeled Petitioner a vexatious litigator. Peti­
tioner had only filed on lawsuit C-2-90-360, and Manos
also put a lifetime Bar on Petitioner for filing C-2-360.
On page 5, Line 6-9: How can you only file two law­
suits in your life and be labeled a vexatious litigator.
The Court: Jerry, I honestly don’t know the answer to
that.
On page 10, Line 12: I have no knowledge of an
AK-47. Never owned one, never used on, never bought
one, never had one in my house but yet federal agents
U.S. Marshall Joel Kimmett and F.B.I. Agent Terrance
Moran both filed a false charge of owning and pos­
sessing an AK-47 with intent to murder a Federal
Judge and both federal agents, 18 U.S.C. § 1001.
On page 12, Line 1 thru 5, “Court, Judge Barrett
“I think some things that happened were clearly
wrong.” I mean, the thing that impressed - Tim and I
looked at the file. The thing that I though was im­
proper was he appointed as a, Quote unquote, “Inde­
pendent evaluator.” “He’s the guy that actually has you
committed. (Rollmans) Petitioner: Carr, “I never did
get an independent evaluation.”
Judge Barrett: “Well, and I think that was proba­
bly wrong.” Line 12, 13, “Clearly, that guy was a bad
actor.” Referring to Dr. Fisher.
Page 13, Line 10, 11, 12, Judge Barrett, “I think
what happened to you back in the ’90’s, in part, was
unfair”

20

Page 13, Line 15, 16,17, Judge Barrett: What was
the Other guy’s name? Petitioner: Dr. Prada, got his li­
cense removed. Judge Barrett: Yeah, He was a kook
too.”
Line 23, Clearly I didn’t want to send you to Jail
because I didn’t think that was necessary.
Page 14, Judge Barrett: “Clearly Jerry, some
things that have happened in the past to you have been
Unfair”“There is no Doubt”
Line 16,17,18, Judge Barrett: Well clearly, the guy
that refers you cannot be an independent evaluator.
Petitioner: I have nightmares. Just like the “ear”
that they bit off and my thumb they tried to bite off.
Judge Barrett: You got beat up, there is no doubt
about it. I was in the hospital for 5 days, I.C.U. for 2
days., by three Klansman, Petitioner: They never spent
one minute in jail. That’s what I am trying to illustrate
to this Court. I have no rights in this country. I have no
Civil Rights. I have no Constitutional Rights.
Judge Barrett: “Dr. Fisher - “Basically fudging
stuff. “It’s nightmares every night from Rollmans.”
Petitioner: “Shock Treatments”
Judge Barrett: - “especially as it relates to Dr.
Fisher there are some things that should not have hap­
pened in your case. “I don’t think there is any doubt
about that.” I mean, I guess it’s kind of like being a Vi­
etnam Veteran or something, “you’ve got nightmares.”.

21
Petitioner: P.T.S.D.
Judge Barrett: Yeah. ‘You’ve got nightmares re­
garding bad stuff that happened to you.”
Res Judicata is moot! Judge Barrett: It looks like
somebody filed a motion. I don’t see anything about ev­
idence just says Manos reviewed the motion and at­
tached memorandum that was submitted to him and
dismissed the case 2-90-360. No trial, No hearing, No
discovery, No depositions, Dismissed a R.I.C.O. Suit on
a Motion No Res Judicata as 06-1893 Robertson and
1:18-00-356 Contreras and D.C. Circuit Court of Ap­
peals Continue to adopt this false narrative that C-290-360 has already been Litigated, False-Moot, “Ruled
on a Motion.”
Petitioner Carr Appealed to the 6th Circuit Court
of Appeals. Leslie Williams U.S. Attorney answered on
top of page 11. “While some mental health events in his
past that may have been improperly handled! Leslie
Williams names specifically Dartmouth Behavior Cen­
ter in Dayton, Ohio, completely covering up exculpa­
tory evidence omitting Rollmans Mental Inst., the 9
injections a day and electric shock treatments, as
did each U.S. Attorney involved in Petitioners ongoing
search for Due Process.
Sheri Morgan
Marsha Yee
Jessie Liu
Dan Van Horn
Karl Kadon
Craig Lawrence

22

All covered up the illegal forced at gun point, Kid­
nap, 18 U.S.C. § 1201, no time limits, 18 U.S.C. § 1512,
18 U.S.C. § 1503, § 1505, 18 U.S.C. § 2340 tortured, 18
U.S.C. § 1001, perjury falsified Petitioner rightfully
filed under color of law 42 U.S.C. § 1983, 18 U.S.C.
§§241, 242 and Intentional Spoliation!

CONCLUSION
Petitioner, Jerry Lee Carr, now 77-years-old has
engaged in a vicious legal battle with a law firm Frost,
Brown & Todd located in Cincinnati, Ohio. Attorney
Randy Freking of Frost, Brown & Todd bragged about
being associated with people in high places that con­
trolled the Federal Courts. Petitioner tried to blow the
whistle on his Employee Champion Int. for allowing
and re-affirming the Ku Klux Klan actions in the work­
place of threatening and recruiting for the Klan. Peti­
tioner went to upper management and was threatened
with employment.
Employer and their law firm retaliated. Petitioner
went to the Cincinnati, Ohio branch of the F.B.I. with
co-worker Sharon Rennick. We spoke with Anthony
Ott and Rick Coy. Both agents were rude and hostile.
Refused our complaints. We both submitted written
complaints, nothing was done, no one interviewed or
deposed. Both Rennick and I were terminated, but
the two Klansman Louis “Wormie” Wilson, known for
the constant use of the word Nigger only got a Letter
of Reprimand and other Klansman William “Wa Wa”

23

Jones only got a letter in his file, both testified they
knew nothing of Reprimand Letters. This same law
firm Frost, Brown & Todd was Accused of Illegally do­
ing over 1,200 illegal wiretaps using client Cincinnati
Bell in 1989, in the Congressional Records in Congress.
Two Bell employees Lonnie Gates and Robert Draise
contacted Rennick and I, telling us George Yund of
Frost, Brown & Todd ordered the wiretaps. Rennick
and I filed R.I.C.O. C-2-90-360. Mr. Gates explained the
over 1,200 illegal wiretaps were performed on Federal
Judges, law firms, lawyers, police chiefs, police and
many agencies set up to help people, O.C.R.C. Betty
Robertson and Roselle Covington, E.E.O.C., N.L.R.B.,
Ann Poppy, A.C.L.U. A1 Geharstein, O.S.H.A. all con­
trolled by Frost, Brown & Todd law firm. George Yund
and Randy Freking were Labor Employment Attor­
neys. The Court has covered up for this law firm Frost,
Brown & Todd that has virtually through the help of
the D.O.J. and corrupt F.B.I. control the News Media
and all Federal agencies in Ohio through over 1,200 Il­
legal Wiretaps and threats and intimidations. The
most important corrupt act was the July 3, 1990, 18
U.S.C. § 1201 kidnapping of Petitioner at gunpoint and
taken directly to Rollmans Mental Inst., in Cincinnati,
Ohio.
Frost, Brown & Todd through their corrupt wire­
taps gained control of the Federal Courts, including the
D.O.J. and F.B.I. in Cincinnati, Ohio. Referring back to
Judge John Manos. Judge Manos unlawful Decision
and life time sanction, protecting conveniently Frost,
Brown & Todd and their Attorneys George Yund and

I

24
Randy Freking, no other Defendants were protected.
Now this is a Bogus Sanction and Bogus Hearing that
has never been heard in an Official Court of Law, all
staged to protect this law firm and their Attorneys.
If the Court will refer to an Aug. 4, 2011 hearing
on page (30) thirty, Line 9 thru 12, the Defendant: It’s
just hard for me living under something that I know I
did not participate in. I was not up there (Columbus).
I did not submit any evidence it says on there. “All ev­
idence was reviewed and Plaintiffs take nothing.” I
think it says something to that affect. “All evidence was
reviewed, Plaintiffs takes nothing,” something checked
box 0 a trial or hearing was held on July 10,1991. The
Court, Judge Michael Barrett: Quoted: It looks like
somebody filed a motion. I don’t see anything about ev­
idence, Jerry. It just says that the Judge Manos re­
viewed the motion and the attached memorandum
that was submitted to him (Judge Manos). No litiga­
tion was held on July 10, 1991, but each Judge Manos
July 10,1991 adopted this bogus trial or hearing, from
case to case. Petitioner paying for an honest judge from
Judge Robertson, to Judge Contreras, to U.S. Court of
Appeals in D.C. Court of Appeals in the D.C. circuit,
how could all these judges be wrong and Petitioner be
right? Simple on page 695 of transcripts (Rennick vs.
Champion) Randy Freking bragged to Rennick’s wit­
ness Allen Lample. He (Freking) was associated with
People in High Places that Controlled the Federal
Courts. Case 2-90-360 R.I.C.O. no motion mention of
Petitioner (Carr) taken at gunpoint and tortured for
(6) six straight days before being heavily drugged and

25
electric shock treatments. No mention of Probate Judge
Henry Bruewer, read the folder and walked out. Stat­
ing “I will not participate in this hearing.” Petitioner
was then probated to Dartmouth Behavioral Center
Dayton, Ohio. Petitioner (Carr) appealed CR:107 Judge
Barrett, Leslie Williams U.S. Attorney sat thru CR:107
but in the Sixth Circuit Court of Appeals committed
omission of exculpatory evidence, therefore, violates
due process, where the evidence is critical to either
quilt or innocence or punishment.” John Brady vs.
State of Maryland, Ms. Leslie Williams, U.S. Attorney
intentionally committed omission and spoliation of ev­
idence that would vindicated Petitioner (Carr). Leslie
Williams explains on bottom of page 10. “The Court:
Judge Berrett explained to Carr that, while there were
some page (11) mental health events in his past that
may have been improperly handled! Cover-up for Dr.
Fisher, George Yund, Elaine Holman, Dr. Miller and
Judge John Manos for the alleged kidnapping 18 U.S.C.
§ 1201 and torture to a perfectly healthy, sane worker,
working full time for 25 years at Champion Int. until
Carr and Rennick went to Cincinnati, Ohio. F.B.I. An­
thony Ott and Rick Coy, the F.B.I. and D.O.J. both par­
ticipated in over 1200 illegal wiretaps, including
President Gerald Ford at the hotel Westin in Cinti.,
Ohio.
Champion Int., Frost, Brown & Todd, Elaine Hol­
man and Judge Manos all retaliated in the most egre­
gious, outrageous, cruel and extreme way, short of
death possible. Taken at gunpoint on a false affi­
davit by Dr. Fisher and Dr Miller to be exposed to 9

)

26

injections a day and shock treatments, this is some
mental health events Leslie Williams refers to. U.S.
Attorney Leslie Williams again commits omission
and spoliation of exculpatory evidence by cover-up of
threatening a federal Plaintiff in case 06-1893 R.I.C.O.
suit. Within 4 months of filing 06-1893 Federal Agents
Joel Kimmitt, U.S. Marshal and F.B.I. agent Terrence
Moran both filed a sworn Probable Cause Affidavit
that Petitioner, Carr, owned and possessed an AK-47
assault rifle. Totally false. Affidavit and threatened
Federal Judge Robertson and both agents with murder
and a blank search warrant to seize Carr’s 9mm hand­
gun kept at home since 1988. After Klansman (3) beat,
kicked and stomped on along with biting half of Carr’s
right ear off and spit it out in front of Carr. The Onsite
police refused Carr help. Rennick was called to take
Carr to emergency room, then to I.C.U. for days recov­
ering. Williams goes on to say Carr had been previously
committed to a mental inst., specifically Dartmouth!
What happened to Rollmans and my torture again
covering upon exculpatory evidence and the AK-47
Probable Cause Affidavit, all important exculpatory
evidence! Leslie Williams goes on to carry on this
whole fabrication of labeling Carr vexatious litigator
filing many lawsuits. Carr’s first lawsuit was C-2-90360 R.I.C.O.
This whole concept that Carr was mentally ill, a
vexatious litigator and owning an AK-47 has been
adopted in 06-1892 R.I.C.O., 00356 Judge Contreras
and 19-5077 D.C. Circuit Court of Appeals of Res Judi­
cata! Case has never been litigated, except by Judge

27

Barrett CR:107. He stated you were clearly done
wrong, Leslie Williams improperly handled each case
adopted the bogus order from Judge Manos, no vexa­
tious litigator, no AK-47, not mentally ill, all to destroy
Carr’s life for filing a R.I.C.O. suit against Frost, Brown
& Todd, D.O.J. and F.B.I. Each court C-2-90-360 R.I.C.O.
in Cint. Ohio, 06-1893 R.I.C.O., both times taken at
gunpoint and incarcerated and tortured until case was
dismissed!
Each U.S. Attorney on the cases followed suit
refusing thru intentional omission and intentional
spoliation omitted Rollman’s and the torture, each U.S.
Attorney omitted Carr spent a year in prison and a bo­
gus probable cause sworn affidavit and owning and
possessing an AK-47, which always translates into
Carr never had due process under the constitution,
which means both sides are heard in the court of law.
U.S. Attorneys with D.O.J. were as follows:
Sheri Morgan
Marsha Yee
Daniel F. Van Horn
Jessie K. Liu
As Randy Freking openly bragged in court’s tran­
scripts page 682 thru 695, Rennick vs. Champion I
“I (Freking) can do pretty much whatever I want
in Federal Court.” Also “I am associated with People in
High Places that controls the Federal Courts.”

28

/

Carr is filing this under the Threat of Death by
F.B.I. Agent. Petitioner in short has lost all constitu­
tional rights as natural born American citizen. Peti­
tioner now has no right to vote in own country and lost
my right to own or possess a firearm for home protec­
tion. Petitioner has been denied due process. Petitioner
on July 2, 1990, tape recorded psychiatrist Michael
Miller and state forensic psychologist Roger Fisher on
July 3, 1990. The courts have been controlled by this
law firm Frost, Brown & Todd. If any court would have
provided due process and allow Petitioner to play those
tapes of both doctors in courtroom, the Petitioner
would not be filing with the supreme court, pleading
for my rights to be restored. The D.O.J. and F.B.I. col­
luded with Frost, Brown & Todd and the courts to 18
U.S.C. §§ 241, 242 deprivation of my constitutional
rights. Those tapes would have proved Petitioner’s in­
nocence and not kidnapped 18 U.S.C. § 1201 at gun­
point and taken directly to Rollmans State Mental
Inst, in Cinti., Ohio, and tortured with 9 injections a
day of Haldol, Cogentin and Ativan and strapped down
on a gurney and given forced electric shock treatments
for 6 straight days without a hearing where Petitioner
could have played those tape recording, but Frost,
Brown & Todd controlling the courts did not want me
to have due process. After 6 days of drugs, Petitioner
was drugged so heavily for his probate hearing. Peti­
tioner was dragged across a public street by sheriff
deputy under each arm, so drugged slobbering from
the mouth and could not speak for himself and no wit­
nesses were allowed to speak including Rennick, co­
plaintiff in C-2-90-360. The affidavits filed by Dr.

29
Fisher and Miller refer to Petitioner Carr sued his em­
ployer Champion Ins. and their law firm Frost & Ja­
cobs now Frost, Brown & Todd. Was this a reason to
have Petitioner put in a Rollman State Mental Inst,
and tortured. Petitioner, after eleven years, finally got
access to Rollman’s medical papers. Petitioner found
incriminating evidence in Carr’s medical papers, so on
Nov. 2006 Petitioner filed another R.I.C.O. suit 06-1893
Judge Robertson in Washington, D.C., Defendants were
Frost, Brown & Todd, D.O.J. and F.B.I. all colluded
with this law firm including the courts, as Freking on
page 695 of C-l-84-1487, “I (Freking) am associated
with People in High Places that Controls the Federal
Courts.” Judge Robertson showed extreme bias, stating
this court awoke when F.B.I., George Yund and Randy
Freking put in their answers. The F.B.I. Terrence Mo­
ran and U.S. Marshal entered a false affidavit probable
cause stating Carr owned and possessed an AK-47
with intent to murder. 100% False, Carr never owned
or possessed an AK-47 in his life 18 U.S.C. § 1001, same
as Fisher and Miller 18 U.S.C. § 1001 filing a false af­
fidavit, no due process and Judge Robertson adopted a
fabricated hearing on C-2-90-360, no litigation was
heard, even Judge Michael Barrett page 30, 9-12 I see
somebody filed a motion and submitted a memoran­
dum. It states no evidence was submitted. It just says
Judge Manos reviewed the motion and the attached
memorandum that was submitted to Manos, nothing
on a trial or hearing. Again in 06-1893 and C-2-90-360
both times false affidavit to have Petitioner taken at
gunpoint and incarcerated in mental wards this time
for a year on another 18 U.S.C. § 1001 filing a false

30

affidavit. Again, no due process for Petitioner to plead
his innocence before a jury and again no independent
evaluator.
The court and U.S. Attorneys:
Shari Morgan
Jessie Liu
Marsha Yee
Daniel Van Horn
Karl Kadon
All have intentionally omitted exculpatory evi­
dence therefore violates Petitioner’s due process, so the
D.O.J. and F.B.I. and courts continue to prove Freking
statement, I am associated with People in High Places
that Control the courts. To this present day the D.O.J.
and F.B.I. and courts refuse to listen to the tape record­
ings, investigate Petitioner’s complaints and allega­
tions. Even the fact that Janice Morse of Cincinnati,
Enquirer newspaper is covering up the altering of trial
transcripts, First Amendment Freedom of the Press
and the Right for grievance of Redress against my Gov­
ernment.
Respectfully submitted,
Jerry Lee Carr
9674 Colerain Ave., #267
Cincinnati, Ohio 45251
513-312-6698

